No.
In the Supreme Court of the United States
October Term, 2020

WILLIAM JAMES JONAS, III, PETITIONER,
V.
UNITED STATES OF AMERICA, RESPONDENT

PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

NOW COMES Petitioner William James Jonas, III, by and through his
undersigned appointed counsel, and pursuant to Rule 39.1, Supreme Court Rules,
and Title 18, United States Code, § 3006A(d)(7), respectfully moves this
Honorable Court for leave to proceed in forma pauperis, and to file the previously
filed Petition for Writ of Certiorari to the United States Court of Appeals for the
Fifth Circuit without prepayment of fees. Petitioner has had the undersigned as his
court appointed counsel on direct appeal before the Fifth Circuit Court of Appeals,

appeal under the CJA.
DATED: December 14, 2020.

Re: submitted,

George W. Aristotelidis

CJA Appointed Counsel

Tower Life Building

310 South St. Mary’s St., Suite 100
San Antonio, Texas 78205

(210) 277-1906 - Telephone
jgaristo67 @gmail.com
